Audit of USAID/Egypt's
Recipient Audit Universe

Audit Report No. 6-263-02-002-P

December 26, 2001




                    Cairo, Egypt
U.S. AGENCY FOR
INTERNATIONAL
 DEVELOPMENT

 RIG/Cairo


December 26, 2001


MEMORANDUM

FOR:              Acting USAID/Egypt Director, Anne Aarnes

FROM:             RIG/Cairo, Darryl T. Burris

SUBJECT:          Audit of USAID/Egypt's Recipient Audit Universe
                  (Report No. 6-263-02-002-P)

This memorandum is our report on the subject audit. In finalizing
the report, we considered your comments on the draft report. These
comments are summarized on page 8 of the report and in their
entirety in Appendix II.

Base on your comments, we consider that final action has been
completed on Recommendation No. 1 of the report.

I appreciate the cooperation and courtesy extended to my staff during
the audit.
Table of   Summary of Results                                        3
Contents
           Background                                                3

           Audit Objective                                           4

           Audit Findings                                            4

                  Identification of the Audit Universe               4

                  Audit Coverage for Collateral Funds                6

                  Recipient-Contracted Audit Report Timeliness       7

           Management Comments and Our Evaluation                    8

           Appendix I - Scope and Methodology                        9

           Appendix II – Management Comments                         11




                                                                 2
Summary of   The Regional Inspector General/Cairo performed this audit to determine whether
Results      USAID/Egypt's audit universe is complete and accurate and if required audits were
             done in a timely manner.

             We verified that USAID/Egypt developed an accurate recipient audit universe (page
             4). However, the funds disbursed to establish collateral funds for small and micro
             finance lending activities were not included in the scope of annual audits, except for
             closeout audits; and one agreement establishing a collateral fund did not include
             standard audit provisions (page 6). We recommended that the Mission obtain an
             opinion from the Regional Legal Advisor on whether the Mission’s collateral funds
             are subject to audit and, if so, how frequently and to what extent (page 7). Finally,
             financial audits contracted by recipients in fiscal years 2000 and 2001 were not
             submitted within the timeframes specified in USAID’s Automated Directives System
             (ADS) guidance (page 7). However, this condition was due to unusual circumstances
             and, therefore, does not require corrective action.



Background   Financial audits of contracts and grants are a primary basis for effective
             management and control of USAID’s program expenditures. These audits are
             designed to provide Agency management reasonable assurance that transactions
             are properly recorded and accounted for; laws, regulations and provisions of
             contract or grant agreements are complied with; and USAID-financed funds,
             property and other assets are safeguarded against unauthorized use or disposition.

             In response to congressional concerns, USAID has taken an active role in recent
             years using audits as a management tool to improve financial accountability of
             programs. During 1991 and 1992, USAID revised its standard provisions for
             contracts and grants, requiring annual audits of non-U.S. organizations disbursing
             USAID funds of $25,000 or more. The threshold was increased to $100,000 in
             May 1994 and to $300,000 in July 1998.

             Furthermore, in April 1992, USAID issued a General Notice defining the role of
             USAID missions in obtaining audits of contracts, grants and cooperative
             agreements with non-U.S. organizations. In May 1996, these requirements were
             incorporated into Chapter 591 of the ADS, which, among other things, requires
             USAID missions to (1) establish an audit management program; (2) maintain an
             audit inventory database; and (3) have audits done for non-U.S. grants, contracts
             and cooperative agreements that meet the audit threshold.

             These initiatives help to prevent misuse of development funds and facilitates
             timely corrective actions by USAID. Lack of adequate audit coverage constitutes
             a high risk because, without such a control mechanism, financial accountability of
             program expenditures cannot be reasonably assured.

             In March 1995, the Office of Inspector General (OIG) issued Audit Report No. 03-
             95-009 on USAID’s implementation of its 1992 initiative to improve the financial
                                                                                             3
                 management of programs. The report concluded that most missions had
                 implemented the general requirements of the financial audit management program
                 and established audit inventory databases. However, complete coverage was
                 impaired as a result of obstacles arising from host government restrictions and
                 local audit firm capabilities.

                 In March 1998, the OIG issued Audit Report No. 9-000-98-002-F on USAID
                 missions’ roles in obtaining audits of contracts, grants and cooperative agreements.
                 The report concluded that 11 of the 14 USAID missions selected agency-wide
                 generally obtained audits of contracts, grants and cooperative agreements as
                 required by ADS chapter 591. However, a significant number of required audits
                 were not completed at 10 of the audited 14 USAID missions.

                 In May 1999, OIG management decided to verify the accuracy of USAID
                 missions’ recipient audit universes agency-wide over a period of three years
                 because the lack of audit coverage was perceived as a high-risk area.



Audit            As part of its fiscal year 2001 audit plan, RIG/Cairo performed this audit to answer
Objective        the following question:

                 Is USAID/Egypt’s audit universe accurate and were required audits conducted
                 in a timely manner?

                 The audit scope and methodology is in Appendix I.


                 Is USAID/Egypt’s audit universe accurate and were required audits
Audit Findings   conducted in a timely manner?

                 USAID/Egypt’s audit universe was accurate, although some confusion existed about
                 the appropriate audit coverage for collateral funds. Further, fiscal year 2000 and
                 2001 recipient-contracted audits were not conducted in a timely manner. Details of
                 the audit findings are discussed below.

                 Identification of the Audit Universe

                 USAID/Egypt developed an accurate audit universe from its database. The audit
                 universe indicated that as of June 30, 2000, on a cumulative basis within its search
                 criteria, 1 the Mission had disbursed approximately $1.75 billion to 109 U.S. or



                 1
                   USAID/Egypt’s search criteria were all commitments with a commitment end date 6/30/97 or
                 more recent but excluding the following: (a) indefinite quantity contracts with accounting firms,
                 (b) U.S. and Foreign National personal services contracts, (c) bank letters of commitment, (d)
                 letters of commitment with suppliers of goods, (e) small purchases, (f) low dollar value
                 disbursements, (g) fully audited disbursements, (h) fixed amount reimbursement agreements, and
                 (i) collateral funds. The value of the exclusions was $1.05 billion.
                                                                                                            4
international organizations, and $706 million to 15 Egyptian organizations. 2 The
table below provides a breakdown of these disbursements by type of agreement
and by number and type of recipient:

                   U.S.& International              Egyptian                    Total
     Type of        Disbursements and         Disbursements and           Disbursements and
    Agreement       No. of Recipients         No. of Recipients           No. of Recipients 3

Contracts          $1,511,535,222        79          -            -       $1,511,535,222 79
Grants                156,027,338        18 $683,900,190 124                839,927,528 30
Cooperative             79,579,627       12      22,330,873           3     101,910,500 15
Agreements
        Totals 5 $1,747,142,187 109 $706,231,063                  15 $2,453,373,250 124

Our audit focused on the Mission’s development and management of an audit
universe for the entities that fall within the Mission’s responsibility. The audit
universe for U.S. and international organizations is managed by
USAID/Washington. ADS Chapter 591 requires audits on non-U.S. recipient
organizations if their USAID-funded expenditures exceed $300,000 during the
recipient’s fiscal year.

USAID/Egypt builds its annual audit plan by analyzing downloaded Mission
Accounting and Control System (MACS) information and past audit coverage of
the entities involved to determine whether there are unaudited disbursements
exceeding, or projected to exceed, $300,000 by the entity’s fiscal year end.
Government of Egypt entities generally have a June 30 fiscal year end while non-
governmental entities normally have a December 31 fiscal year end.

We considered the Mission’s approach for developing its audit universe to be
reasonable unless entities or funds were improperly excluded from the analysis or
continuing audit requirements existed for an entity more than three years beyond
its agreement’s commitment end date as might be the case for an endowment.


2
  As discussed further in Appendix I, the disbursements presented in this report have not been
audited.
3
  The database may include the same recipient with slightly different name spellings and, as well,
recipients might have more than one type of agreement. Therefore, the count of the number of
recipients may be slightly inflated.
4
  Includes six cash transfer agreements with Government of Egypt ministries amounting to
$641 million. For purposes of this audit we counted these agreements as being with one recipient,
i.e., the Government of Egypt, since the cash transfer agreements are audited as a group.
5
   Some of the Mission’s agreements are funded using a combination of U.S. dollars and Host
Country Owned Local Currency. For purposes of this table, the Host Country Owned Local
Currency amounts have been converted to their dollar equivalent and combined with the U.S. dollar
funding.
                                                                                            5
Audit Coverage
for Collateral Funds

For small and micro-finance activities, USAID/Egypt has disbursed funds to some
recipients to establish collateral funds. The Mission explained that these collateral
funds remain in a recipient’s bank account drawing interest backing up overdraft
(line of credit) accounts from which the recipient conducts its lending activities.
Some agreements allowed the recipient to use the interest earned from the
collateral funds for its administrative costs to run the agreed upon program. Other
agreements allowed the interest to be added to the collateral fund to make a larger
collateral fund. In both cases, the interest was considered to be program income.
The Mission does not count collateral funds when assessing whether the $300,000
per year expenditure threshold for audit has been met because the recipients never
spend the initial collateral funds given to them.

The Mission does schedule audits of USAID funds provided to these entities for
their operating expenses, assuming the $300,000 per year audit threshold is met.
Additionally, for close-out audits of these entities, the Mission has included a
specific step in financial audit statements of work to assess whether the collateral
funds have been used in accordance with the agreement.

After the agreement ends, audit coverage ends although the collateral funds remain
with the recipient. Although Mission personnel said that they understood that the
collateral funds will continue to be used after the agreement ends for the same
purposes as during the agreement period, only one of four agreements that we
reviewed had specific provisions to this effect.

OMB Circular A-133 indicates that for certain types of awards, e.g., loan
guarantees and endowments, for which the Federal Government imposes
continuing compliance requirements, the cumulative balance of federal awards in
the hands of a recipient are considered to be award amounts for purposes of
assessing whether the dollar threshold for audit is exceeded in a given year. Since
the collateral funds given by the Mission are of the nature of either a loan
guarantee fund or an endowment fund 6 restricted to specified uses, it would appear
that under the OMB criteria collateral funds should be audited each year, at least
until the agreement end date or a later date if called for in the agreement.

In 1999, USAID/Egypt and a local for-profit entity, Credit Guarantee Company for
Small Scale Enterprises (CGC), entered into a financing agreement to capitalize a
Guarantee Facility Trust Fund. USAID’s total estimated contribution to this
Financing Agreement was $8.4 million. These funds are to be used solely as
collateral against CGC’s guarantees of loans and/or lines of credit from various
sources to support small and emerging businesses in Egypt.              Although
6
  USAID’s policy Determination (PD) No. 21, dated July 18, 1994, Guidelines: Endowments
Financed With Appropriated Funds, states that for purposes of PD 21 an endowment is considered
to be the capitalization of a fund, independent from USAID, the objective of which to generate
income to maintain activities of a private, non-profit institution that are consistent with proposes of
the Agency’s authorizing legislation.
                                                                                                 6
management details are still being worked out, the CGC project is planned to
ultimately involve about $60 million and approximately 60 sub-recipients. We
noted that this collateral fund agreement does not include USAID’s standard
provisions for audits. A one-time audit is called for, but there is no mention of the
audit standards to follow or provisions for quality control by the OIG. Hence, we
believe that audit requirements applicable to the Mission’s collateral funds
remained an area of confusion.           Consequently, we make the following
recommendation.

       Recommendation No. 1: We recommend that USAID/Egypt obtain an
       opinion from the Regional Legal Advisor on whether the Mission’s
       collateral funds are subject to audit and, if so, what the extent and
       timing of such audits should be.

Recipient-Contracted
Audit Report Timeliness

ADS E591.5.4 requires that recipient-contracted audits be submitted to the
cognizant OIG office within nine months of the audited period. We reviewed the
timeliness of such audits submitted under the Mission’s fiscal year 2000 and 2001
audit plans and found that the audits were not submitted timely. In the case of the
fiscal year 2000 plan, 11 of 17 recipients submitted their reports beyond nine
months of the audited period. For the fiscal year 2001 audit plan, none of the 8
audits that were due by the end of March had been submitted, although 4 of the 8
were submitted within two months after the required date.

Regarding the fiscal year 2000 audit plan, the Mission did not send out its first
audit notification letters to recipients until January 2000. Considering that the
audits of the Egyptian government entities (with a June 30 fiscal year end) were
due by the end of March 2000, only two months remained for the recipients to
contract for the audits and get them submitted on time. For its fiscal year 2001
audit plan, the Mission sent out its initial audit notification letters in December, a
month earlier than the previous year. The Mission expects that by next year it
should get back to its old timetable which was to send out the audit notification
letters in October.

We attribute the delays in sending audit notification letters to the following
reasons:

•   Fiscal year 2000 was the first year that the Mission had Egyptian government
    recipients contract for their audits. Previously, these audits had been Mission-
    contracted. In implementing the first cycle of such audits, the Mission had to
    do a lot of convincing of the entities to take on this new responsibility.
    Further, some entities had to learn how to contract for these audits.
•   The Mission and RIG/Cairo took considerable time to determine the language
    to be included in the notification letter.
•   Notification letters were held up until RIG/Cairo and the Mission’s legal,
    contracting, and financial management offices made a determination on certain
                                                                                7
                         legal issues regarding the eligibility of certain audit firms to compete for the
                         audit work.
                     •   The Mission did not want to send out current year notification letters until the
                         prior year’s audits were complete.

                     As indicated above, fiscal year 2000 and 2001 recipient-contracted audit delays
                     were due to unusual circumstances, and the Mission expects to be back on
                     schedule in fiscal year 2002. Accordingly, we are not making a recommendation.
                     However, we suggest that if in executing the fiscal year 2002 audit plan the
                     Mission sends out its audit notification letters in October and still finds that the
                     Egyptian government entities are unable to meet their March 30 deadline for
                     submitting their audit reports, then the Mission should consider sending its audit
                     notification letters earlier.



Management     USAID/Egypt obtained an opinion from its Regional Legal Advisor on whether the
Comments and Mission’s collateral funds are subject to audit, and the extent and timing of such
Our Evaluation audits. The Regional Legal Advisor’s opinion stated in part that, “funds disbursed
                     under any USAID agreement are subject to audit in accordance with standard
                     USAID audit provisions included in such agreements. …For any USAID/Egypt
                     agreements establishing collateral funds that inadvertently do not contain
                     appropriate audit clauses, such as the Credit Guarantee Company (CGC) Financing
                     Agreement mentioned in the report, the Mission intends to amend such agreements
                     to include standard audit provisions. …The standard provisions require an annual
                     audit of the financial statements of the organization during the oversight and post-
                     oversight periods.” The Mission stated it had revised its audit plan accordingly.

                     Based on the Mission’s response and action, Recommendation No. 1 is closed
                     upon report issuance.




                                                                                                    8
                                                                                 Appendix I


Scope and     Scope
Methodology
              We performed the audit in accordance with generally accepted government
              auditing standards and assessed whether (1) USAID/Egypt’s audit universe was
              complete and accurate, and (2) required audits were done in a timely manner.

              We carried out fieldwork at USAID/Egypt in Cairo from October 30 through
              December 30, 2000, with some follow up work in April and May 2001. The audit
              covered approximately $2.45 billion of USAID disbursements to various
              organizations. The audit scope included:

              •   Reviewing the Mission’s audit management program and related documents.
              •   Interviewing cognizant Mission officials.
              •   Reviewing the Mission’s automated database of contracts, grants and
                  cooperative agreements and identifying those that require audits.

              In addition, we obtained information on (1) total disbursements for all grants,
              contracts and cooperative agreements as of June 30, 2000; and (2) the number and
              amount of grants, contracts and cooperative agreements falling below the audit
              threshold of $300,000.

              The audit criteria were principally comprised of Chapter 591 of USAID’s
              Automated Directives System (ADS) and the OIG Guidelines for Financial
              Audits Contracted by Foreign Recipients, revised in July 1998.

              Methodology

              We reviewed the Mission’s audit inventory database to determine if it contained
              the information needed to monitor and track required audits. We also examined
              documentation and conducted interviews with cognizant officials to determine
              whether USAID/Egypt had met its responsibilities established by ADS Chapter
              591 and the OIG Guidelines.

              To answer our audit objective, we obtained the universe of USAID/Egypt’s
              grants, contracts and cooperative agreements and determined the number and
              dollar amounts of all agreements with Egyptian organizations subject to audit
              coverage at June 30, 2000. We obtained the information from USAID/Egypt’s
              contract files and the Mission Accounting and Control System (MACS). We then
              ascertained whether (1) these agreements were included in the Mission’s audit
              inventory, (2) required audits were completed on time, (3) audit reports were
              prepared in accordance with USAID guidelines and sent to RIG/Cairo for review,
              and (4) the agreements contained required audit clauses.

              To achieve the audit’s objective, we relied on computer-processed data contained
              in USAID/Egypt’s MACS database. We did not establish the reliability of this


                                                                                             9
                                                                  Appendix I


data because of time and staff constraints.

Because of the small size of the audit universe within the Mission’s management
responsibility, we considered even one exception as significant for reporting
purposes.




                                                                             10
                                                                                                 Appendix II



MANAGEMENT
COMMENTS


                          UNITED STATES AGENCY for INTERNATIONAL DEVELOPMENT



             CAIRO, EGYPT                                                                  6 DEC 2001
                   MEMORANDUM

                   TO:            RIG/A, Darryl T. Burris

                   FROM:          Division Chief, Elizabeth Palmer, FM/FA

                   SUBJECT:       Response to the Audit of USAID/Egypt's Recipient Audit Universe Audit Draft
                                  Report No. 6-263-01-00X-P


                   Following is the Mission's response to Recommendation No. 1.

                           Recommendation No. 1:

                           We recommend that USAID/Egypt obtain an opinion from the Regional Legal
                           Advisor on whether the Mission's collateral funds are subject to audit and, if so,
                           what the extent and timing of such audits should be.

                          The attached legal opinion states that an annual audit of the financial statements of the
                   organization is required during the oversight and post-oversight periods. We have revised our
                   FY '02 audit plan accordingly. During the oversight period, these reports will be sent to
                   RIG/Cairo for review under the provisions of the USAlD Recipient Contracted Audit Program.
                   The USAID/Cairo Mission has taken final action, therefore, please close Recommendation No.
                   1 upon issuance of the final report.


                           Thank you for your cooperation.




                   Distribution:
                   A.Aarnes, D/DIR
                   B. Schaeffer, OD/MGT
                   G. Kinney, OD/PROC
                   P. Weisenfeld, OD/LEG
                   D. McCloud, OD/SCS
                   H. Jamshed, OD/FM
                   R. Mahoney, AD/EG
                   M. Khalil, EG/PF
                   File




             USAID Office Building
             Plot 1/A off El-Laselki street
             New Maadi, Cairo - Egypt
             Postal Code #: 11435




                                                                                                                11
                                                                                                    Appendix II



                           MEMORANDUM



TO:             OD/FM, Homi Jamshed

FROM:           LEG, Monica Smith

 CC:            OD/LEG, Paul Weisenfeld
                FM/FA/OD, Elizabeth Palmer
                FM/FA, Khaled Farag


DATE:           October 31, 2001



RE:             Audit of USAID/Egypt's Recipient Audit Universe:
                Audit Report No. 6-263-02-00X-P

_________________________________________________________________________________

         Recommendation No. 1 in the subject audit report recommends that USAID/Egypt obtain an
 opinion from the Regional Legal Advisor on whether the Mission's collateral funds are subject to audit
 and, if so, what the extent and timing of such audits should be.1 The audit report indicates that there is
 some disagreement regarding whether such funds are subject to audit. The Legal Office believes that it
 is well sealed that funds disbursed under any USAID agreement are subject to audit in accordance with
 standard USAID audit provisions included in such agreements. Audit provisions are routinely included
 in order to verify that the funds are being used for the purposes set forth in the agreement.

        For any USAID/Egypt agreements establishing collateral funds that inadvertently do not contain
 appropriate audit clauses, such as the Credit Guarantee Company (CGC) Financing Agreement
 mentioned in the report, the Mission intends to amend such agreements to include standard audit
 provisions. Such audit provisions will be similar to those used for endowments, since for audit purposes,
 agreements providing collateral funds as described in the audit report most closely resemble
 endowments (rather than grants). The standard provisions require an annual audit of the financial
 statements of the organization during the oversight and post-oversight periods. The scope of work for
 the annual audit shall include determination of whether the recipient has used its funds in accordance
 with the agreement, as well as verification of compliance with the conflict of interest policies of the
 recipient.

 _____________________________
 1
  Collateral funds refer to funds granted to a recipient for the purpose of serving as collateral against the recipient’s
 issuance of guarantees of loans or lines of credit from various sources to eligible small and emerging business service
 units. The collateral funds may be incrementally depleted only upon default of any of such loans.




                                                                                                                      12
